RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-631
Hologic, Inc., and Cytyc Surgical Products, LLC,
Cross-Petitioners,
v.
Minerva Surgical, Inc.,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Robert N. Hochman, certify
that the Brief in Opposition in the foregoing case contains 5,978 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 24, 2020.
/s/ Robert N. Hochman
ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000

